           Audit Report



Adjustment of Monthly Benefits
 Under the Family Maximum
         Provisions




     A-09-13-13087 | March 2014
MEMORANDUM


Date:      March 11, 2014                                                     Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)

           The attached final report presents the results of our audit. Our objective was to determine
           whether the Social Security Administration correctly adjusted child and spousal benefits in
           accordance with the family maximum provisions when spousal beneficiaries were dually
           entitled.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Adjustment of Monthly Benefits Under the Family Maximum
Provisions
A-09-13-13087
March 2014                                                                   Office of Audit Report Summary

Objective                                   Our Findings

To determine whether the Social             SSA did not always properly adjust child and spousal benefits in
Security Administration (SSA)               accordance with the family maximum provisions. Based on our
correctly adjusted child and spousal        random sample, we estimate that SSA improperly paid spousal and
benefits in accordance with the family      child beneficiaries about
maximum provisions when spousal
beneficiaries were dually entitled.            $25.6 million on 2,334 records because it incorrectly calculated
                                                the total benefits payable under the family maximum
Background                                      provisions,

The Social Security Act limits the             $10.8 million on 547 records because it did not combine the
amount of benefits payable to child             family maximum for children who were eligible for benefits on
and spousal beneficiaries on a Social           more than 1 Social Security record, and
Security record. If the total monthly
benefits of all child and spousal              $4.6 million on 547 records because it improperly calculated
beneficiaries exceed the maximum,               benefits for spouses who had a child in their care.
SSA must reduce their payments to
keep the total benefits within the          In addition, we estimate that SSA will improperly pay about
family maximum provisions.                  $4.6 million, annually, on 2,006 records unless it takes action to
                                            identify and correct these payment errors.
Individuals may be entitled to more
than one type of benefit. When              Our Recommendations
individuals are entitled to retirement
                                            We recommend that SSA:
and spousal benefits, SSA must only
consider the amount of spousal              1. Take appropriate action to pay underpayments and establish
benefits actually payable when                 overpayments on the 94 records identified by our audit.
adjusting monthly benefit amounts
under the family maximum provisions.        2. Evaluate the results of its corrective action for the 94 records
The family maximum may be higher if            and determine whether it should review the remaining
a child is entitled to benefits on both        population of 7,095 records.
parents’ records. Finally, spouses may
receive higher benefits if they have an     3. Improve controls to ensure child and spousal benefits are
entitled child in their care who is under      properly adjusted for records with dually entitled spouses.
age 16 or disabled.
                                            4. Remind employees to (1) properly apply the family maximum
                                               provisions for records with dually entitled spouses and
                                               (2) review eligibility for children entitled to benefits on both
                                               parents’ records and spouses with a child in their care.

                                            SSA agreed with our recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Incorrect Calculations Under the Family Maximum Provisions ...............................................3
     Family Maximums Not Combined ............................................................................................4
     Spousal Benefits Improperly Reduced.......................................................................................5
Conclusions ......................................................................................................................................6
Recommendations ............................................................................................................................6
Agency Comments ...........................................................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology and Results ................................................................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)
ABBREVIATIONS
MBR                 Master Beneficiary Record

OIG                 Office of the Inspector General

POMS                Program Operations Manual System

SSA                 Social Security Administration

U.S.C.              United States Code




Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) correctly
adjusted child and spousal benefits in accordance with the family maximum provisions when
spousal beneficiaries were dually entitled.

BACKGROUND
The Social Security Act limits the amount of benefits payable to child and spousal beneficiaries
on a Social Security record. Generally, no more than one established maximum amount can be
paid to a family, regardless of the number of beneficiaries entitled on that record. If the total
monthly benefits of all child and spousal beneficiaries exceeds the maximum, SSA must reduce
their payments to keep the total benefits within the family maximum provisions. 1

Individuals may be entitled to more than one type of benefit. For example, individuals may be
entitled to retirement benefits based on their own earnings and spousal benefits on another Social
Security record. However, their benefit amounts cannot exceed the highest single benefit to
which they are entitled. When individuals are entitled to retirement and spousal benefits, SSA
must only consider the amount of spousal benefits actually payable when adjusting monthly
benefit amounts under the family maximum provisions. 2

Children may also be entitled to benefits on more than one of their parents’ Social Security
records. Under these circumstances, SSA must combine the family maximums on both parents’
records to determine the monthly benefit amounts payable to entitled children and spouses. 3
Finally, SSA must reduce spouses’ benefits if they receive benefits before full retirement age. 4
However, SSA should not reduce their benefits if the spouses have an entitled child in their care
who is under age 16 or disabled. 5

SSA employees must manually calculate the benefits payable under the family maximum
provisions. SSA’s automated system validates the benefit payments, including the family
maximum computations, for dually entitled beneficiaries. It reviews and corrects monthly
benefit amounts for the current year and, if necessary, up to 4 years retroactively. However,
the system is not programmed to review payment rates for dually entitled spouses with a child
entitled to benefits on more than one Social Security record.


1
    The Social Security Act § 203(a), 42 U.S.C. § 403(a). See also SSA, POMS, RS 00615.754 (May 23, 2006).
2
 The Social Security Act § 202(q), 42 U.S.C. § 402(q). See also SSA, POMS, RS 00615.020 (April 13, 2011) and
RS 00615.768 (September 22, 2004).
3
 We use the term “spouse” generically in this report to include spouses, widow(ers), and mothers and fathers with a
child in care.
4
 The Social Security Act § 202(q), 42 U.S.C. § 402(q). See also SSA, POMS, RS 00615.004 (September 16, 2002)
and RS 00615.005 (September 16, 2002).
5
    SSA, POMS, RS 00615.201 (April 22, 2011).



Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)                                1
For our review, we identified 7,295 Social Security records with a dually entitled spouse and at
least 1 entitled child whose benefits may have been adjusted because of the family maximum
provisions. From this population, we selected a random sample of 200 records for review (see
Appendix A).

RESULTS OF REVIEW
SSA did not always properly adjust child and spousal benefits in accordance with the family
maximum provisions. Based on our random sample, we estimate that SSA improperly paid
spousal and child beneficiaries about

     $25.6 million6 on 2,334 records because it incorrectly calculated the total benefits payable
      under the family maximum provisions,

     $10.8 million7 on 547 records because it did not combine the family maximum for children
      who were eligible for benefits on more than 1 Social Security record, and

     $4.6 million8 on 547 records because it improperly calculated benefits for spouses who had a
      child in their care.

In addition, we estimate that SSA will improperly pay about $4.6 million, annually, on
2,006 records unless it takes action to identify and correct these payment errors.

These errors generally occurred because SSA employees did not correctly apply the family
maximum provisions for records with dually entitled spouses and child beneficiaries.

We are 90-percent confident the number of records

     with incorrect calculations under the family maximum provisions ranged from 1,943 to
      2,755, and the improper payments ranged from $17.3 to $33.9 million;

     without combined family maximums ranged from 344 to 821, and the improper payments
      ranged from $5.3 to $16.2 million; and

     with improperly calculated spousal benefits ranged from 344 to 821, and the improper
      payments ranged from $2.2 to $7 million.

Finally, we are 90-percent confident the annual estimate of records with improper payments
ranged from 1,635 to 2,414, and the improper payments ranged from $3.3 to $6 million (see
Appendix B).



6
    Based on sample results of $352,556 in underpayments and $349,006 in overpayments.
7
    Based on sample results of $287,436 in underpayments and $8,439 in overpayments.
8
    Based on sample results of $118,758 in underpayments and $6,696 in overpayments.



Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)                   2
For the 200 records in our sample, SSA (1) incorrectly calculated the family maximum on
64 (32 percent), (2) did not combine the family maximums on 15 (7.5 percent), and
(3) improperly calculated benefits for spouses who had a child in their care on 15 (7.5 percent).
For the remaining 106 (53 percent) records, SSA correctly calculated the benefit payments.
The following chart summarizes the results of our review.

             Figure 1: Adjustment of Benefits Under the Family Maximum Provisions



                             Based on Random Sample of 200 Records

                                                                              Family Maximum
        Benefits Correctly                                                     Not Combined
           Paid (53%)                                                              (7.5%)



                                                                                   Incorrectly
                                                                               Calculated Benefits
                                                                                     (32%)



                                                                               Spousal Benefits
                                                                             Improperly Reduced
                                                                                   (7.5%)




Incorrect Calculations Under the Family Maximum Provisions
To determine the monthly benefits payable to spouses and children, SSA calculates the amount
each beneficiary is eligible to receive and determines whether their total benefits exceed the
family maximum. 9 When the total of all monthly benefits exceeds the family maximum, SSA
must proportionally reduce the monthly benefit amount for each beneficiary. 10 For example,
if a spouse and two children are each entitled to a $400 monthly benefit and the family maximum
is $900, SSA would only pay each beneficiary $300. When individuals are entitled to retirement
and spousal benefits, SSA must only consider the amount of spousal benefits actually payable
when adjusting monthly benefit amounts under the family maximum provisions. 11 For
example, if a spouse were entitled to a $200 monthly retirement benefit, SSA would still pay a
$300 monthly benefit (a $200 retirement benefit and a $100 spousal benefit). However, only




9
    SSA, POMS, RS 00615.756 (December 2, 2010).
10
     SSA, POMS, RS 00615.754 (May 23, 2006).
11
     SSA, POMS, RS 00615.768 (September 22, 2004).



Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)                   3
$100 would apply to the $900 family maximum. As a result, each child would receive a
$400 monthly benefit.

For 64 of the 200 records in our sample, SSA incorrectly calculated the child and spousal
benefits under the family maximum provisions. In addition, SSA’s automated system did not
detect and correct these errors. As a result, SSA improperly paid $701,562 in child and spousal
benefits—$352,556 in underpayments and $349,006 in overpayments. 12

For example, in September 2001, a beneficiary was entitled to retirement and spousal benefits.
In April 2006, her two adopted children became entitled to child’s benefits. She and her
two children were each entitled to a $934 monthly benefit amount, and the family maximum
was $1,914. As a result, each beneficiary’s monthly benefit amount should have been
$638 ($1,914/3). However, the spouse was also entitled to a $270 monthly retirement benefit.
Her $638 monthly benefit amount consisted of $270 retirement benefit and a $368 spousal
benefit. Since the spousal benefit payable was $368, the two children’s monthly benefit
amounts should have been $773 each rather than $638. As a result, SSA underpaid the family
$15,174 from April 2006 to October 2013.

Family Maximums Not Combined
When a child is entitled to benefits on more than one Social Security record, SSA must pay
benefits on the record that results in the highest monthly benefit amount. 13 In addition, SSA
must combine the family maximums of all records on which a child is entitled. For example, a
child entitled to benefits on the father’s record with a family maximum of $1,000 is also entitled
to benefits on the mother’s record with a family maximum of $500. SSA must combine these
benefits for a total combined family maximum of $1,500. SSA must combine the family
maximums when

      the child will receive a higher monthly benefit amount,

      other entitled beneficiaries will receive higher monthly benefit amounts, or

      the family will receive a higher total monthly benefit amount even if a child’s individual
       monthly benefit amount is lower. 14




12
  The 64 records included 28 with underpayments, 29 with overpayments, and 7 with under- and overpayments to
individuals living in different households.
13
     The Social Security Act § 202(k)(2), 42 U.S.C. § 402(k)(2).
14
     SSA, POMS, RS 00615.770 (April 10, 2013).



Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)                             4
For 15 of the 200 records in our sample, SSA did not combine the family maximums for children
who were eligible for benefits on more than 1 record. This occurred because SSA employees
did not establish the child’s entitlement to benefits on both parents’ records. As a result, SSA
improperly paid $295,875 in child and spousal benefits—$287,436 in underpayments and
$8,439 in overpayments. 15

For example, in November 2002, two children were entitled to benefits on their father’s
Social Security record. The children were also eligible for benefits on their mother’s record in
November 2002. However, SSA only established their entitlement on their father’s record. The
dually entitled spouse received a monthly benefit of $203, and each child received $279. By
combining the family maximums, the spouse would have received $246, and each child
would have received $326. Therefore, SSA did not combine the family maximums from both
records, as required. As a result, SSA underpaid the two children and spouse $34,297 from
November 2002 to October 2013.

Spousal Benefits Improperly Reduced
SSA must reduce a spouse’s benefits if they receive benefits before full retirement age unless
they are caring for the wage earner’s child. 16 The child must be under age 16 or disabled. 17

For 15 of the 200 records in our sample, SSA improperly paid reduced benefits for spouses
who had an eligible child in their care. This occurred because SSA employees overlooked the
spouses’ eligibility for unreduced benefits because they had a child in their care. As a result,
SSA improperly paid $125,454 in child and spousal benefits—$118,758 in underpayments and
$6,696 in overpayments. 18

For example, in April 2009, a beneficiary was entitled to spousal and retirement benefits. In
addition, her two children lived with her and were entitled to benefits on both parents’ Social
Security records as of April 2009. SSA properly combined the family maximums. However,
SSA improperly reduced her spousal benefits even though she had two eligible children under
age 16 in her care. As a result, SSA underpaid her $7,738 in spousal benefits from April 2009 to
October 2013.




15
     The 15 records included 14 with underpayments and 1 with an overpayment.
16
     The Social Security Act § 202(q)(5), 42 U.S.C. § 402(q)(5).
17
     SSA, POMS, RS 00208.005 (February 23, 2012).
18
  The 15 records included 12 with underpayments, 2 with overpayments, and 1 with under- and overpayments to
individuals living in different households.



Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)                            5
CONCLUSIONS
SSA did not always adjust the child and spousal benefits in accordance with the family
maximum provisions. Based on our random sample, we estimate that SSA improperly paid
spousal and child beneficiaries about (1) $25.6 million on 2,334 records because it incorrectly
calculated the total benefits payable under the family maximum provisions, (2) $10.8 million on
547 records because it did not combine the family maximum for children who were eligible for
benefits on more than 1 Social Security record, and (3) $4.6 million on 547 records because it
improperly calculated benefits for spouses who had a child in their care. In addition, we estimate
that SSA will improperly pay about $4.6 million, annually, on 2,006 records, unless it takes
action to identify and correct these payment errors (see Appendix B).

RECOMMENDATIONS
We recommend that SSA:

1. Take appropriate action to pay underpayments and establish overpayments on the 94 records
   identified by our audit.

2. Evaluate the results of its corrective action for the 94 records and determine whether it
   should review the remaining population of 7,095 records.

3. Improve controls to ensure child and spousal benefits are properly adjusted for records with
   dually entitled spouses.

4. Remind employees to (1) properly apply the family maximum provisions for records with
   dually entitled spouses and (2) review eligibility for children entitled to benefits on both
   parents’ records and spouses with a child in their care.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in Appendix C.




Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)                6
                                      APPENDICES




Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)
Appendix A – SCOPE AND METHODOLOGY
We obtained from the Social Security Administration’s (SSA) Master Beneficiary Record
(MBR) a data extract of 7,295 records with a dually entitled spouse and at least 1 child whose
benefits may have been adjusted because of the family maximum provisions as of April 2010.

To accomplish our objective, we

   reviewed the applicable sections of the Social Security Act, the U.S. Code, and SSA’s
    Program Operations Manual System;

   interviewed SSA employees from the Offices of Operations and Systems;

   reviewed a random sample of 200 records;

   reviewed queries from SSA’s MBR, Claims File Records Management System, and Online
    Retrieval System; and

   used SSA’s Interactive Computation Facility and Western Program Service Center’s Rate
    Computations to determine the amount of child and spousal benefits payable.

We determined whether the computer-processed data from the MBR were sufficiently reliable
for our intended purpose. We tested the data to determine their completeness and accuracy.
These tests allowed us to assess the reliability of the data and achieve our audit objective.

We conducted audit work in Richmond, California, and Baltimore, Maryland, between February
and October 2013. The entity audited was the Office of Operations under the Office of the
Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)               A-1
Appendix B – SAMPLING METHODOLOGY AND RESULTS
From the Social Security Administration’s (SSA) Master Beneficiary Record, we obtained a data
extract of 7,295 records with a dually entitled spouse and at least 1 child whose benefits may
have been adjusted because of the family maximum provisions as of April 2010. From this
population, we selected a random sample of 200 records for review.

Incorrect Calculations Under the Family Maximum Provisions
For 64 of the 200 records in our sample, SSA incorrectly calculated the total benefits payable
under the family maximum provisions. As a result, SSA improperly paid $701,562 in child and
spousal benefits. Projecting our sample results to the population of 7,295 records, we estimate
that SSA improperly paid about $25.6 million in child and spousal benefits on 2,334 records.

Family Maximum Not Combined
For 15 of the 200 records in our sample, SSA did not combine the family maximum for
children who were eligible for benefits on more than 1 Social Security record. As a result, SSA
improperly paid $295,875 in child and spousal benefits. Projecting our sample results to the
population of 7,295 records, we estimate that SSA improperly paid about $10.8 million in child
and spousal benefits on 547 records.

Spousal Benefits Improperly Reduced
For 15 of the 200 records in our sample, SSA improperly paid reduced benefits for spouses
who had a child in their care. As a result, SSA improperly paid $125,454 in child and spousal
benefits. Projecting our sample results to the population of 7,295 records, we estimate that SSA
improperly paid about $4.6 million in child and spousal benefits on 547 records.

Annual Estimate of All Recurring Improper Payments
To obtain an annual estimate of all recurring improper payments, we determined that 55 of the
94 incorrect records in our sample were in current pay status as of April 2013. For these records,
we multiplied the total improper payments for April 2013 ($10,550) by 12 months to estimate
the annual amount of improper payments ($126,600). Projecting our sample results to the
population of 7,295 records, we estimate that SSA will improperly pay about $4.6 million in
child and spousal benefits on 2,006 records, annually, unless it takes action to identify and
correct these payment errors.

The following tables provide the details of our sample results and statistical projections.




Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)             B-1
                                 Table B–1: Population and Sample Size
                              Description                                 Records
                             Population Size                               7,295
                              Sample Size                                    200

         Table B–2: Incorrect Calculations Under the Family Maximum Provisions
          Description                                 Records                       Improper Payments
         Sample Results                                   64                              $701,562
         Point Estimate                                2,334                           $25,589,474
    Projection - Lower Limit                           1,943                           $17,319,024
    Projection - Upper Limit                           2,755                           $33,859,924
Note:   All statistical projections are at the 90-percent confidence level.

                             Table B–3: Family Maximum Not Combined
          Description                                 Records                       Improper Payments
         Sample Results                                   15                              $295,875
         Point Estimate                                 547                            $10,792,041
    Projection - Lower Limit                            344                             $5,337,173
    Projection - Upper Limit                            821                            $16,246,908
Note:   All statistical projections are at the 90-percent confidence level.

                          Table B–4: Spousal Benefits Improperly Reduced
          Description                                 Records                       Improper Payments
         Sample Results                                   15                              $125,454
         Point Estimate                                 547                             $4,575,935
    Projection - Lower Limit                            344                             $2,174,927
    Projection - Upper Limit                            821                             $6,976,942
Note:   All statistical projections are at the 90-percent confidence level.

               Table B–5: Annual Estimate of All Recurring Improper Payments
          Description                                 Records                       Improper Payments
         Sample Results                                   55                              $126,600
         Point Estimate                                2,006                            $4,617,735
    Projection - Lower Limit                           1,635                            $3,261,312
    Projection - Upper Limit                           2,414                            $5,974,158
Note:   All statistical projections are at the 90-percent confidence level.




Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)                      B-2
           Appendix C – AGENCY COMMENTS




                                          SOCIAL SECURITY

MEMORANDUM

Date:      February 18, 2014                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Adjustment of Monthly Benefits Under the
           Family Maximum Provisions” (A-09-13-13087)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)              C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"ADJUSTMENT OF MONTHLY BENEFITS UNDER THE FAMILY MAXIMUM
PROVISIONS" (A-09-13-13087)

Recommendation 1

Take appropriate action to pay underpayments and establish overpayments on the 94 records
identified by our audit.

Response

We agree. We plan to review and take necessary action on the 94 records within 6 months of
OIG issuing the final report.

Recommendation 2

Evaluate the results of its corrective action for the 94 records and determine whether it should
review the remaining population of 7,095 records.

Response

We agree. We will determine whether reviewing the remaining records is appropriate, after
resolving the 94 cases identified by the audit.

Recommendation 3

Improve controls to ensure child and spousal benefits are properly adjusted for records with
dually entitled spouses.

Response

We agree. We will explore options for improving controls to ensure we properly adjust child
and spousal benefits for records with dually entitled spouses after we review and complete the
necessary actions on the 94 cases identified by the audit.

Recommendation 4

Remind employees to: (1) properly apply the family maximum provisions for records with
dually entitled spouses and (2) review eligibility for children entitled to benefits on both parents’
records and spouses with a child in their care.

Response

We agree. We will issue appropriate policy and processing reminders after reviewing and
completing necessary actions on the 94 cases identified by the audit.



Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)                 C-2
Appendix D – MAJOR CONTRIBUTORS
James J. Klein, Director, San Francisco Audit Division

Jack H. Trudel, Audit Manager

Andrew Hanks, Senior Program Analyst




Adjustment of Monthly Benefits Under the Family Maximum Provisions (A-09-13-13087)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
